OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/RUSSIA’S
IMPLEMENTATION OF THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 8-118-07-004-P
August 10, 2007




FRANKFURT, GERMANY
      Office of Inspector General


August 10, 2007

MEMORANDUM

TO:            USAID/Russia Acting Mission Director, Janina Jaruzelski

FROM:          Regional Inspector General, Frankfurt, Gerard M. Custer /s/

SUBJECT:       Audit of USAID/Russia’s Implementation of the President’s Emergency Plan for
               AIDS Relief (Report Number 8-118-07-004-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and modified the report language as appropriate.
Your comments are included in their entirety as Appendix II.

The report contains one recommendation for corrective action. Based on your written
comments and the documents you submitted indicating actions planned to address our
concerns, we consider that a management decision has been reached on this recommendation.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objective ............................................................................................................ 2

Audit Findings ................................................................................................................. 3

     Mission Needs to Strengthen Its
     Data Quality Assurance Procedures ........................................................................... 7

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13
SUMMARY OF RESULTS
USAID/Russia’s HIV/AIDS program focuses on a variety of prevention and treatment
projects directed at high-risk populations, including vulnerable youth, drug users and
prisoners. The objectives of the program are to empower local leaders; promote
collaboration; establish support for people living with HIV/AIDS; and engage and
strengthen groups working in the area of prevention, care and support (see page 2).

This audit was conducted as part of a worldwide audit, led by the USAID Office of
Inspector General’s Performance Audit Division, of USAID’s implementation of the
President’s Emergency Plan for AIDS Relief (PEPFAR, or the Emergency Plan). The
objective of this audit was to determine whether USAID/Russia’s Emergency Plan
activities were achieving the planned results specified in its contracts, grants and
cooperative agreements (see page 2).

From October 2005 to September 2006, USAID/Russia (1) exceeded all seven of its
PEPFAR performance results targets; and (2) achieved most, but not all, of the planned
results for FY 2006 related to the Mission’s HIV/AIDS prevention, care, and treatment
activities under its contracts, grants and cooperative agreements (see pages 3-6).

The Mission, however, needed to improve its efforts to ensure the quality and integrity of
its program results data. The audit highlighted the need for the Mission to strengthen its
procedures and identified several instances in which summarized results data were not
adequately supported and differed significantly from the supporting monthly reports
furnished by the Mission’s implementing partners. Data reported by sub-partners on
training and outreach efforts were also not always adequately supported and, in some
cases, could not be traced to supporting documents. In addition, the Mission was not
reviewing data and data sources in sufficient detail to ensure that data being aggregated
and reported under each performance indicator were appropriate and consistent with the
definition for that indicator. These problems occurred, in part, because existing PEPFAR
program guidance did not outline detailed procedures for the Mission to follow in
maintaining data quality assurance (see pages 7-9).

To address this issue, this report contains one recommendation for the Mission to
develop mission-specific procedures that clearly define the roles and responsibilities of
activity mangers and partners for assuring the quality of the Mission’s reported PEPFAR
program results data (see page 9).

In response to our draft report, USAID/Russia agreed to strengthen its data quality
procedures for the PEPFAR program and proposed actions to address our concerns.
Specifically, the Mission plans to: (1) hold a data quality workshop with its implementing
partners to address data quality assurance issues; (2) participate in a data quality
workshop (organized by the Office of the Global AIDS Coordinator) designed to help
develop a Data Quality Improvement Plan; (3) expand the PEPFAR/Russia reporting
guide to include guidance for performing PEPFAR data quality assurance checks and
assign specific roles and responsibilities; and (4) hold in-depth training for program staff
on performing data quality audits. Based on these proposed actions, we consider that a
management decision has been reached on the recommendation (see page 10).

Management comments are included in their entirety in Appendix II.

                                                                                          1
BACKGROUND
Recognizing the global HIV/AIDS pandemic as one of the greatest challenges of our
time, Congress enacted legislation to fight HIV/AIDS internationally through the
President’s Emergency Plan for AIDS Relief (PEPFAR, or the Emergency Plan)—the
largest international health initiative in history by one nation to address a single disease.
The $15 billion, 5-year program provides $9 billion in new funding to speed up
prevention, care, and treatment services in 15 focus countries. PEPFAR allocated $5
billion over 5 years to bilateral programs in more than 100 “non-focus” countries, with the
remaining $1 billion used to increase the U.S. pledge to the Global Fund to fight AIDS,
Tuberculosis and Malaria.

Over the past decade, Russia has experienced one of the fastest growing HIV/AIDS
epidemics in the world. Russia identified its first case of HIV in 1987, and until 1995 the
prevalence rate remained low. In 1996, however, the infection rate exploded, with 1,515
new cases. After reaching its highest level to date in 2001, the annual number of newly
diagnosed HIV/AIDS cases in Russia has remained relatively steady. At the end of
2005, there were approximately 350,000 registered cases of HIV/AIDS in Russia. These
figures, however, are not accurate, as many HIV/AIDS cases are not officially reported.

USAID/Russia’s PEPFAR program currently focuses on prevention and treatment
activities for high-risk populations, including vulnerable youth, drug users and prisoners.
Specifically, the Mission’s HIV/AIDS treatment, care, and support initiative seeks to (1)
empower local leaders; (2) promote collaboration; (3) establish support for people living
with HIV/AIDS; (4) strengthen groups working in prevention, care and support; (5)
control HIV/AIDS transmission; and (6) build capacity to apply a quality improvement
methodology. Following the Mission’s designation as a non-focus country, in 2005, the
program underwent significant changes to bring it in line with PEPFAR priorities and
respond to reductions in its budget. As a result, fiscal year (FY) 2006—the Mission’s
initial year under PEPFAR and the period covered by this audit—represented a
transitional year during which the Mission implemented a major realignment, resulting in
many of its existing and planned HIV/AIDS activities being either curtailed or cancelled.

During FY 2006, the Mission’s HIV/AIDS program portfolio consisted of a variety of
projects being carried out by 10 prime implementing partners, with obligations for FY
2006 related to HIV/AIDS activities totaling $15.5 million.


AUDIT OBJECTIVE
As part of its FY 2007 audit plan, the Regional Inspector General in Frankfurt, Germany,
conducted this audit to answer the following question:

      Did USAID/Russia’s Emergency Plan prevention, care and treatment
       activities achieve expected planned results in its grants, cooperative
       agreements and contracts?

Appendix I contains a discussion of the audit’s scope and methodology.



                                                                                           2
AUDIT FINDINGS
During the period from October 1, 2005 through September 30, 2006, USAID/Russia
achieved (1) all seven of its FY 2006 Annual Program Results performance targets; and
(2) many, but not all, of the planned results for FY 2006, selected for testing, that were
related to HIV/AIDS prevention, care and treatment activities under the Mission’s grants,
cooperative agreements and contracts with its implementing partners.

For FY 2006, the Mission reported, via its Country Operational Plan and Reporting
System, that it had achieved, and in fact exceeded, the planned targets for all seven of
its applicable PEPFAR performance indicators, as shown in Table 1.


      Table 1 – Prevention, Care, and Treatment Results: Planned vs. Actual

                                                                   FY 2006
                                                FY 2006                          Target
 PEPFAR Indicators [Indicator Codes]                                Actual
                                                 Target                           Met?
                                                                 (unaudited)
Prevention [Indicator codes: 1.2, 1.3]
 1. Number of pregnant women who
 received HIV counseling and testing for
 Preventing Mother to Child                      40,010             87,399         Yes
 Transmission (PMTCT) and received
 their test results.

2. Number of pregnant women provided
with a complete course of antiretroviral           350               872           Yes
prophylaxis in a PMTCT setting.

Care [Indicator codes: 6.2, 7.2, 8.1, 9.2]
3. Total number of individuals provided
                                                  5,935              9,900         Yes
with HIV-related palliative care
4. Number of HIV-infected clients
attending HIV care and treatment
                                                   255               415           Yes
services who are receiving treatment for
tuberculosis (TB) [a subset of item 3].

5. Number of Other Vulnerable Children
                                                    5                6,438         Yes
(OVC) served by OVC programs.
6. Number of individuals who received
counseling and testing for HIV and               41,065            144,553         Yes
received their test results.
Treatment [Indicator code: 10.4]
7. Number of individuals receiving
antiretroviral therapy at the end of the           520               1,366         Yes
reporting period.


                                                                                         3
It should be noted that the actual results data reported in Table 1 consists of data
derived from activities that the Mission directly funded as well as activities that were
indirectly supported and funded by non-U.S. (i.e., Russian) agencies. This is in
accordance with PEPFAR reporting guidelines which prescribes that results data
generated through both direct and indirect support are to be compiled and reported. For
FY 2006, a large percentage of the actual results reported under Russia’s seven
PEPFAR indicators related to non-USAID-funded activities that the Mission indirectly
supported. In FY 2007, the Mission anticipates adding additional indicators that will be
supported to a larger extent by results from USAID-funded activities.

Because much of the results data reported under the seven PEPFAR indicators for FY
2006 related to results generated by activities that USAID indirectly supported (i.e., non-
USAID-funded activities), the audit team also reviewed selected activities carried out by
three of the Mission’s main implementing partners. Based on this review, the audit team
determined that most of the planned HIV/AIDS activities for FY 2006, as described in the
partners’ USAID-approved annual work plans, were either fully or substantially
completed. Of the 55 planned activities for FY 2006 that were selected for testing from
annual work plans, the implementing partners had fully or substantially completed 42
activities (76 percent). Some planned activities were delayed or reduced in scope, often
as a result of efforts to align the program with the new PEPFAR priorities. For the most
part, however, the projects reviewed were found to be achieving their key outputs and
overall objectives or at least making satisfactory progress toward achieving them.
Details regarding the results of the review of individual projects are described below.

Partnership for Community Development Project The implementing partner for this
project successfully completed 8 of the 10 major activities specified in the partner’s FY
2006 work plan. Although two activities were not completed as planned, these activities
did not prevent the project from accomplishing its primary objective during that period.

The project completed several significant tasks in five of Russia’s regions (oblasts).
These tasks included arranging consultation sessions between Russian and American
officials, developing referral processes for patients infected with TB and HIV, conducting
numerous trainings in each oblast on HIV treatment, and increasing the use of nurses in
the HIV diagnosis and treatment model. In addition to these regional activities, the
project successfully completed the development of an HIV-focused curriculum, which
was adopted by Russian postgraduate education institutions. It provided several training
sessions related to HIV care, treatment, and prevention to be replicated by the trainees,
and conducted two health fairs in Moscow.

Assistance to Russian Orphans Project Under this project, 12 of the 13 planned
activities contained in the implementing partner’s FY 2006 work plan were successfully
completed. The one activity not completed involved the establishment of a regional
training center, which was dropped. The center was no longer warranted because of the
Mission’s program realignment and a shift in the regional focus of activities prompted by
the introduction of PEPFAR. This cancellation, however, did not prevent the project from
meeting its overall objectives during this timeframe.

During FY 2006, the project conducted numerous training activities related to preventing
child abandonment, provided assistance for special needs children and their families,
and offered case management approaches. In addition, the project granted five policy
innovation grants to aid in the prevention of child abandonment, sponsored tours by local
officials to the United States to study child abandonment prevention techniques,
published four child welfare reports, and conducted two project wrap-up conferences.


                                                                                         4
Figure 1. Photograph of a mother/child hospital room, part of an effort to reduce the number of
babies abandoned by HIV-infected mothers, at a USAID-supported hospital in St. Petersburg,
Russia (June 2007).


Support to the Russian Parliamentary Working Group on AIDS and the Business
Against AIDS Project This project successfully completed 16 of 21 planned outputs
specified in the partner’s FY 2006 work plan. Of the five that were not completed during
FY 2006, three were completed soon after the end of the fiscal year, one had to be
postponed indefinitely because of a change in the makeup of a legislative body, and the
remaining output—a regional training activity—was not completed.

Among its key accomplishments, the project supported the development of a national
policy on AIDS, assisted in the creation of an online repository for best practices and
monthly legislative updates, arranged visits by international government officials, and
organized federal and regional conferences to encourage an open dialogue related to
AIDS policy. The project conducted training sessions intended to (1) build awareness
and commitment among senior business leaders in the fight against AIDS, (2) implement
and enforce HIV/AIDS nondiscrimination policies in the workplace, and (3) initiate
HIV/AIDS workplace education and training programs for employees.

PreventAIDS Under this project, the implementing partner successfully initiated 6 of the
11 planned activities for FY 2006. Several of the project’s planned activities were
canceled or significantly delayed because of necessary budget revisions instituted
midway through the fiscal year, which were prompted by the project’s integration into
PEPFAR and the resulting realignment. For example, the reallocation of available funds


                                                                                             5
resulted in the cancellation of all HIV prevention activities relating to the Men who have
Sex with Men (MSM) area, the development of a national hot-line was scaled down and
replaced with more limited regional efforts, and a planned redesign of the peer education
program was delayed until FY 2007.

Despite these budgetary reductions and delays, the project was still able to (1) achieve
most of its programmatic objectives for the year for activities in the two focal cities of St.
Petersburg and Samara; (2) initiate activities in a third focal city (Orenburg) by the end of
FY 2006; and (3) successfully implement case management and outreach efforts in St.
Petersburg, Saratov, and Samara during the fiscal year.




Figure 2. Photographs of a mobile outreach bus that provides care and counseling to intravenous
drug users, one of the many activities being implemented as part of the USAID-supported
PreventAIDS project in St. Petersburg, Russia (June 2007).


Although USAID/Russia and its implementing partners achieved or substantially
achieved most of its planned PEPFAR results for FY 2006, the Mission needed to
strengthen its existing data quality assurance procedures to ensure the quality and
integrity of the results data being reported.




                                                                                             6
Mission Needs to Strengthen Its
Data Quality Assurance Procedures
    Summary: USAID and mission policies contain policy guidance to ensure the quality
    and integrity of performance data. This guidance provides that USAID activity
    managers, implementing partners, and sub-partners share the responsibility to verify
    the accuracy of collected performance data. The audit found that USAID/Russia was
    not fully complying with this guidance and was not performing the level of review
    necessary for data quality assurance purposes. Although existing policies and
    program guidance indicate that U.S. Government country teams are responsible for
    ensuring that reported data are of good quality and accurate, the policy guidance does
    not outline specific procedures for achieving data quality assurance. In the absence of
    these procedures, the Mission was not adequately reviewing the results data relating
    to its PEPFAR indicators to ensure reliability and accuracy. Consequently, there is an
    increased risk of errors occurring and inappropriate data being aggregated, which may
    prevent the Mission’s reported results from accurately reflecting its accomplishments.
    Although the review of selected reported data did not disclose any material
    inaccuracies, it did reveal several instances in which data differed significantly from
    their sources, were not adequately supported or were not properly reviewed. These
    deficiencies underscore the need for further coverage and more specific procedures.

Given the high level of interest in PEPFAR and the enormous amount of funding
invested in this health initiative, the Emergency Plan is committed to maintaining
accurate information for the purposes of accountability. More importantly, it is committed
to the collection of reliable data that can be used to evaluate progress and to design
effective implementation efforts. Toward this end, the Emergency Plan has issued
guidance to assist country teams in ensuring the quality of the performance results data.
The Plan’s Data Quality Assurance Tool document highlights some of the most
important steps toward improving the quality of reported data, which include establishing
an audit trail, reporting results consistently over time, reducing measurement or
instrumentation errors, and understanding exactly how results are derived.

In addition, USG/Russia’s Strategic Information Reporting Guide 1 indicates that a
system is needed to support and ensure data quality as it flows from the service outlets
and programs to the subpartners, prime partners, and to the Russian PEPFAR team.
Key components of this system include the standardization of tools; documentation and
access to data sources; checks on information (lower and upper limits, comparisons to
previous results, etc.); training and supervision; and random checking of data collection
and information reporting systems.

Such systems, however, were not fully in place at USAID/Russia, preventing the Mission
from performing the extent of work necessary to ensure the quality of its reported data.
The Mission, for example, had not been reviewing its results data in sufficient detail,
either through analysis or inquiry, to ensure that all of the data collected and aggregated
from the implementing partners were accurate and appropriate. Also, the Mission was
not consistently checking that the internal quality assurance systems, which were
maintained by the implementing partners to ensure that data collected from subpartners
were accurate, were in place and operating as intended.


1
 USG/Russia is the collection of agencies (USAID, Department of Defense, Centers for Disease
Control) that manage PEPFAR programs and directly finance implementing partners in Russia.


                                                                                           7
This failure to check data occurred, in part, because detailed procedural guidance was
not available. Although existing program policies and guidance (e.g., PEPFAR FY 2006
Annual Program Results Guidance and USG/Russia’s Strategic Information Reporting
Guide) indicate that country teams are responsible for ensuring that reported data are of
good quality and accurate, the guidance does not describe specific procedures for the
mission to ensure data quality and does not delineate the roles and responsibilities
assigned to specific individuals. In the absence of such procedures, it is understandable
that USAID/Russia’s activity managers often did not address data verification issues
during the course of their site visits. In addition to the lack of detailed guidance, the
Mission’s Office of Health staff were faced with other priorities in FY 2006. This
represented a transitional year for the Mission during which it concentrated on realigning
its program to integrate it into the PEPFAR framework. As part of this process, the
Mission adopted and implemented the extensive PEPFAR reporting guidelines, and did
so within a relatively brief period of time. Consequently, greater attention was focused
on complying with these new reporting guidelines in aggregating and reporting the
results data, while data quality assurance was assigned a lower priority.

Without proper procedures for ensuring data quality, the risk increases of errors
occurring and inappropriate data being aggregated and reported, which could prevent
reported results from accurately reflecting the program’s actual accomplishments. The
risk of such occurrences is real, as evidenced by some of the discrepancies identified
during the course of the auditors’ fieldwork. Examples include the following:

      Data Not Always Adequately Supported: Spot checks of selected data
       reported by three prime partners and four sub-partners showed that, in most
       cases, the prime implementing partners maintained adequate documentation to
       support the results for their direct activities. However, results data reported by
       the sub-partners on training and outreach efforts could not always be traced to
       the supporting records. In addition, there were several instances where mission-
       aggregated results data differed significantly from the supporting monthly
       outreach reports submitted by the prime partner.

      Data Not Consistent With Indicator Definitions: The review revealed at least
       one case where data reported under one of Russia’s performance indicators may
       not have been appropriate and consistent with what the indicator was intended to
       measure. Specifically, Life Skills training provided to drug addicts was counted
       and reported as peer counselor training, even though the former may not have
       been consistent with the definition for this indicator, which was intended to
       include individuals trained to promote HIV/AIDS prevention programs through
       abstinence or monogamy.

      Data Anomalies Not Being Closely Examined: The review identified one sub-
       partner whose data showed little variation in the number of initial contacts with
       sex workers each month. Further inquiry revealed that outreach case workers for
       this sub-partner were routinely limiting the number of their contacts each month
       to avoid going beyond the monthly target level, apparently misunderstanding the
       intent of these monthly targets.

Although none of the above items resulted in any material inaccuracies or distortions in
the Mission’s reported data for FY 2006, these examples collectively underscore the
need for the Mission to focus on strengthening its data quality assurance procedures to
ensure the accuracy of its reported data. Accurate, reliable, and meaningful data are
essential to allow both the Mission and the overall coordinators of the Emergency Plan


                                                                                        8
to effectively monitor and evaluate the Plan’s quantitative progress toward
predetermined prevention, care, and treatment targets.           To assist the Mission in
ensuring the quality of its reported data, we are making the following recommendation:

       Recommendation No. 1: We recommend that USAID/Russia develop
       specific procedures for its PEPFAR program activities that clearly define
       the roles and responsibilities of activity mangers and partners for data
       quality assurance of the reported program results. At a minimum, these
       procedures should include the following: (1) spot checks of reported data
       to supporting records to verify accuracy; and (2) a review of data and data
       sources to ensure that results reported to the Mission are appropriate and
       consistent with the prescribed indicator definitions.




                                                                                       9
EVALUATION OF
MANAGEMENT COMMENTS
In its written comments to our draft report, the Mission stated that the audit served as a
good management tool to improve data quality assurance and acknowledged that the
data quality procedures for the HIV/AIDS program warranted strengthening. To address
our concerns, the Mission agreed to take the following steps:

      Hold a workshop with all PEPFAR partners and CTOs to update them on target
       setting and results reporting to address specific data quality assurance issues;

      Participate in the February 2008 Data Quality Workshop, organized by the Office
       of the Global AIDS Coordinator, which is intended to help the PEPFAR country
       team strengthen its results reporting and develop a Data Quality Improvement
       Plan;

      Introduce a Data Quality Audit Tool, a set of protocols to be used by CTOs to
       perform data quality assurance checks;

      Revise the PEPFAR/Russia reporting guide to include the Data Quality Audit
       Tool and assign specific roles and responsibilities; and

      Hold an in-depth training session on data quality audits with USAID’s Measure
       Evaluation team and USAID/Russia’s implementing partners.

Based on these proposed actions, we consider that a management decision has been
reached regarding the recommendation.
In reviewing the draft report, the Mission suggested that the report’s background section
point out—as discussed in the body of the report—that FY 2006 was a transitional year
for USAID/Russia’s HIV/AIDS program during which the Mission was faced with many
challenges as a result of the introduction of PEPFAR and reductions in the program
budget. The audit team agreed and the background section was reworded as suggested.

The Mission disagreed with our concern about HIV hotline calls being logged as “new
contacts” in the same manner as face-to-face client counseling. The Mission stated that
PEPFAR policy gives broad latitude as to how to report hotline contacts. In response to
the Mission’s comments, reference to the hotline calls were removed from the report.

The Mission also expressed concerns that the recommendation for “mission-specific
procedures for data quality assurance” implied that new procedures should be
developed and applied to other Mission programs besides PEPFAR. The audit team
adjusted the wording of the recommendation to clarify that it related only to the Mission’s
PEPFAR program.




                                                                                        10
                                                                             APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Frankfurt, Germany conducted this audit of
USAID/Russia’s Implementation of the President’s Emergency Plan for AIDS Relief
(PEPFAR) in accordance with U.S. Government generally accepted auditing standards.
The purpose of the audit was to determine whether USAID/Russia’s PEPFAR activities
had achieved planned results under its grants, cooperative agreements, and contracts.

In planning and performing the audit, the audit team assessed relevant mission
management controls related to the implementation of the Emergency Plan. These
controls included the Mission’s Strategy Statement, data quality assessments, the latest
annual self assessment of management controls as required by the Federal Managers
Financial Integrity Act, trip reports to document field visits by the cognizant technical
officers, progress reports, and correspondence documenting the interaction between
mission staff and program implementing partners. The audit team also gained an
understanding of the Mission’s process for aggregating and reporting the program
results data that supported those PEPFAR performance indicators applicable to Russia’s
program. This data was collected from implementing partners as part of the FY 2006
annual reporting cycle. In addition, the audit team considered audit findings from a
similar audit completed earlier by the Office of Inspector General’s Performance Audits
Division at the USAID/India Mission.

To test whether planned outputs were achieved and identify planned activities and
outputs for FY 2006, the audit team initially reviewed the contracts and annual work
plans for the three PEPFAR implementing partners with the highest authorized funding
levels. These three implementing partners received 66.7 percent of USAID/Russia’s FY
2006 total PEPFAR funding of $15.5 million. In reviewing the FY 2006 annual work
plans for each of the three implementing partners, the audit team selected for testing all
activities that were active during FY 2006 and contributed to the Mission’s program
results, resulting in a sample of 55 activities being carried out under four projects.

Because FY 2006 was a transition year for the PEPFAR program, the Mission reported
on only seven data elements through the Country Operational Plan and Reporting
System. The reported results were generated mostly by activities the Mission was only
indirectly supporting, rather than USAID-funded activities, as PEPFAR guidelines allow
for the reporting of both direct and indirect results. In addition, source documentation
related to these results was often maintained by Russian agencies and was not readily
available for audit. Furthermore, because most of the results data reported under the
seven PEPFAR indicators for FY 2006 related to non-USAID-funded activities, this data
could not be used to evaluate whether or not USAID contractors were achieving their
planned results. Therefore, these reported results were not reviewed during this audit.

The audit was conducted at the USAID/Russia Mission in Moscow, Russia, from May 29
through June 21, 2007. During this period, site visits were performed at implementing
partner and sub-partner offices and activity sites in Moscow, Samara, Tagliatti, and St.
Petersburg, Russia.


                                                                                       11
Methodology
To determine whether USAID/Russia’s PEPFAR activities were achieving their planned
results, the audit team first met with and interviewed USAID/Russia staff in the Mission’s
Office of Health to gain an understanding of the subject matter.

The audit team reviewed relevant documentation such as grants, cooperative
agreements, and contracts, including contract amendments and addendums; Mission
correspondence; internal worksheets used to measure results; quarterly, semi–annual
and annual progress reports; field trip reports; and reports on participatory site visits by
mission staff with recipients and sub-recipients. The audit team assessed the Mission’s
compliance with guidance contained in the Emergency Plan’s Data Quality Assurance
Tool and the USG/Russia’s Strategic Information Reporting Guide.

The audit team selected three of the Mission’s main implementing partners—those that
reported the highest level of obligations during FY 2006—for more detailed examination.
The team reviewed pertinent documents for these implementing partners, which
included trip reports and semi-annual and annual reports, to determine the levels of
monitoring and which outputs had been achieved. In addition, site visits were conducted
to observe day-to-day program operations of activities being carried out in the field by
the prime partners and sub-partners.

The audit team also tested a judgmental sample of outputs under each project and
verified reported progress related to these outputs during site visits and interviews with
each implementing partner. Based on the collective results, the team determined the
progress of each project toward the achievement of planned outputs.

In assessing whether the projects selected for review achieved their planned results for
FY 2006, the audit team applied a materiality threshold of 75 percent. That is, if the
activities contained in the project work plans were consistent with the project’s overall
goals, and the implementing partners had achieved at least 75 percent of planned
outputs for the fiscal year, the program was judged either to have achieved or to be
making acceptable progress towards achieving its planned results.




                                                                                         12
                                                                              Appendix II



MANAGEMENT COMMENTS


Memorandum

To: Regional Inspector General/Frankfurt

From: Acting Mission Director, USAID/Russia, Janina Jaruzelski

Subject: Response to Audit of USAID/Russia’s PEPFAR Program
         (Report No. 8-118-07-00x-P)

USAID/Russia appreciates the recommendation and insights offered in the draft audit
report and the opportunity to comment on the USAID/Russia PEPFAR program,
especially on the quality of data gathered. We believe the audit is a good management
tool to improve data quality assurance, an important feature of the Global PEPFAR
program.

We have one comment or point of clarification to make on the audit itself and then a
proposed plan which responds to strengthening data quality assurance and mission
project management oversight suggestions set forth in the draft audit report.

Management Comments:

1. Background Statement: Page 2 is a concise statement of some basic contextual
   information concerning the PEPFAR program. The one fact which is not mentioned
   in the opening background statement however, but is highlighted correctly on pages
   4 and 5, is that several key program changes took place as a result of the
   introduction of PEPFAR and reductions in the budget. Thus, all planned outcomes/
   results could not be achieved as the program was realigned. Since the audit chose
   the period from October 2005 through September 2006, which coincided with the
   beginning of USAID/Russia’s involvement with PEPFAR programming as a non-
   focus country, we believe the opening statement would be more balanced and fair if
   it simply included a comment related to realigning the programs according to
   PEPFAR priorities and the fact that the audit time period was a transitional year for
   USAID/Russia’s HIV/AIDS program.

2. Mission Needs To Strengthen Its Data Quality Assurance Procedures: While
   we are in agreement that data quality procedures for the HIV/AIDS programs warrant
   strengthening, the example given on page 8, related to hotlines and double counting
   is inaccurate and bears clarification. Callers to hotlines expect to be counseled and
   do receive anonymous counseling and referrals. Likewise, counseling is also
   provided face to face in HIV/AIDS programs. These are both legitimate forms of



                                                                                       13
   counseling and can be counted as individual contacts. Hotline calls are registered
   and callers are asked whether this is their first encounter with the programs and
   based on their response they are logged in accordingly either as a new client or a
   new caller. The PEPFAR policy gives broader latitude as to how to report hotline
   contacts. We therefore, would suggest that the basis for the page 8 suggestion may
   not be applicable.

3. The Audit Recommendation: While we welcome the suggestion for the mission to
   develop mission-specific procedures for data quality assurance, our response to the
   audit recommendation is tailored to PEPFAR programs and the types of health
   information and data quality those programs require consistent with the January
   2007 PEPFAR Data Quality Assurance Tool. Our mission does not intend, nor is it
   relevant, to apply those instructions or instruments to other programs.

   Response to Recommendation 1:

   With USAID/Washington’s Office of HIV/AIDS help, USAID/Russia is in the process
   of further refining the mission’s data quality improvement plan for PEPFAR
   programs. These refinements include specific procedures, training and actions by
   partners, sub-partners and CTOs. These measures, include elaborating a timeline
   for data quality audits, specifying roles and responsibilities, applying consistent data
   quality audit methodology for HIV/AIDS programs, training partners and CTOs and
   Activity Managers on this methodology, carrying out standard PEPFAR program site
   visits by CTOs and Activity Managers and filling out the standard PEPFAR site visits
   checklist (see attachment A), and holding an annual PEPFAR program review which
   documents performance on a standard form (See attachment B).

Key Actions:

1.       The Mission Strategic Information (SI) team plans to led by Rick Berzon, AID/W
with all PEPFAR partners and CTOs on July 31, 2007. The purpose of this workshop will
be to update partners on target setting and results reporting for 07/08 and to address
specific data quality assurance issues and feedback from this audit report. This meeting
will have a strong focus on assuring data quality of sub-partners.

2.     The mission’s HIV/AIDS Strategic Information (SI) officer will attend the February
2008 Data Quality Workshop being organized by O/GAC which is intended to assist the
PEPFAR country team to plan for investments in activities to strengthen results reporting
and to develop a Data Quality Improvement Plan for each country.

3.       The Mission’s Health Office will introduce a Data Quality Audit Tool, a set of
protocols developed and disseminated by O/GAC to be used by CTOs to perform data
quality assurance checks. The two protocols referenced below, will be introduced at the
July 31 meeting providing guidance to partners and CTOs on how to carry out a
PEPFAR data audit. The Mission PPD staff will also be included in the trainings.
PEPFAR/Russia SI reporting guide will be revised to include the data quality audit tool
and specific roles and responsibilities, including recommended frequency of checks,
report findings and recommended actions.

   4. Hold in-depth partners training session with AID/W Measure Evaluation team
      and partner M&E advisors on data quality audits.


                                                                                         14
Below is a proposed Management and Evaluation (M&E) Assessment tool
recommended by PEPFAR and an M&E data collection system which will be used to
improve DQA in PEPFAR/Russia programs. As a first step USAID/Russia proposes to
systematically apply these two protocols. Each CTO will be responsible for addressing
and correcting any of the functional areas where the answer is not in the affirmative.


Protocol 1
SYSTEMS ASSESSMENT QUESTIONS BY FUNCTIONAL AREA
Functional Areas Summary Questions
I    M&E
     Capabilities,       Are key M&E and data-management staff
                      1
     Roles and           identified with clearly assigned responsibilities?
     Responsibilities
II Training              Have the majority of key M&E and data-
                      2 management staff received the required
                         training?
III Data Reporting       Has the Program/Project clearly documented (in
     Requirements 3 writing) what is reported to who, and how and
                         when reporting is required?
IV Indicator             Are there operational indicator definitions
     Definitions      4 meeting relevant standards and are they
                         systematically followed by all service points?
V Data-collection        Are there standard data-collection and reporting
                      5
     and Reporting       forms that are systematically used?
     Forms and           Are source documents kept and made available
     Tools            6
                         in accordance with a written policy?
VI Data
                         Does clear documentation of collection,
     Management 7
                         aggregation and manipulation steps exist?
     Processes
VII Data Quality         Are data quality challenges identified and are
                      8
     Mechanisms          mechanisms in place for addressing them?
     and Controls        Are there clearly defined and followed
                      9 procedures to identify and reconcile
                         discrepancies in reports?
                         Are there clearly defined and followed
                      10
                         procedures to periodically verify source data?
VIII Links with
                         Does the data collection and reporting system of
     National
                      11 the Program/Project link to the National
     Reporting
                         Reporting System?
     System




                                                                                     15
Protocol 2
SERVICE DELIVERY POINT - 5 TYPES OF DATA
VERIFICATIONS
Verifications    Description                                   -
                 Observe the connection between the delivery
Verification no.
                 of services/commodities and the completion
1:                                                             If feasible
                 of the source document that records that
Observation
                 service delivery.
Verification no.
                 Review availability and completeness of all
2:
                 indicator source documents for the selected In all cases
Documentation
                 reporting period.
Review
                 Trace and verify reported numbers: (1)
Verification no.
                 Recount the reported numbers from available
3:                                                             In all cases
                 source documents; (2) Compare the verified
Trace and
                 numbers to the site reported number; (3)
Verification
                 Identify reasons for any differences.
Verification no. Perform “cross-checks” of the verified report
4:               totals with other data-sources (eg. inventory If feasible
Cross-checks records, laboratory reports, etc.).
Verification no. Perform “spot checks” to verify the actual
5:               delivery of services or commodities to the    If feasible
Spot checks      target populations.




                                                                              16
